<html>
<title> - AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND RELATED AGENCIES APPROPRIATIONS FOR 2016
</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]



       AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG ADMINISTRATION, AND 
                RELATED AGENCIES APPROPRIATIONS FOR 2016

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FOURTEENTH CONGRESS

                              FIRST SESSION

                               ___________

      SUBCOMMITTEE ON AGRICULTURE, RURAL DEVELOPMENT, FOOD AND DRUG 
                  ADMINISTRATION, AND RELATED AGENCIES

                  ROBERT B. ADERHOLT, Alabama, Chairman

  KEVIN YODER, Kansas
  THOMAS J. ROONEY, Florida
  DAVID G. VALADAO, California
  ANDY HARRIS, Maryland
  DAVID YOUNG, Iowa
  STEVEN M. PALAZZO, Mississippi

  SAM FARR, California
  ROSA L. DeLAURO, Connecticut
  SANFORD D. BISHOP, Jr., Georgia
  CHELLIE PINGREE, Maine

  NOTE: Under Committee Rules, Mr. Rogers, as Chairman of the Full 
  Committee, and Mrs. Lowey, as Ranking Minority Member of the Full 
  Committee, are authorized to sit as Members of all Subcommittees.

                 Tom O'Brien, Pam Miller, Andrew Cooper,
                           and Elizabeth King,
                             Staff Assistants

                              ___________

                                 PART 5B

                                                                   Page
  USDA Farm and Foreign Agricultural Service (cont'd)             1601
  USDA Research, Education, and Economics............             2751


              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                             ___________

 
       Printed for the use of the Committee on Appropriations

                    U.S. GOVERNMENT PUBLISHING OFFICE

  98-154                    WASHINGTON : 2016

        



                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                   HAROLD ROGERS, Kentucky, Chairman


  RODNEY P. FRELINGHUYSEN, New Jersey
  ROBERT B. ADERHOLT, Alabama
  KAY GRANGER, Texas
  MICHAEL K. SIMPSON, Idaho
  JOHN ABNEY CULBERSON, Texas
  ANDER CRENSHAW, Florida
  JOHN R. CARTER, Texas
  KEN CALVERT, California
  TOM COLE, Oklahoma
  MARIO DIAZ-BALART, Florida
  CHARLES W. DENT, Pennsylvania
  TOM GRAVES, Georgia
  KEVIN YODER, Kansas
  STEVE WOMACK, Arkansas
  JEFF FORTENBERRY, Nebraska
  THOMAS J. ROONEY, Florida
  CHARLES J. FLEISCHMANN, Tennessee
  JAIME HERRERA BEUTLER, Washington
  DAVID P. JOYCE, Ohio
  DAVID G. VALADAO, California
  ANDY HARRIS, Maryland
  MARTHA ROBY, Alabama
  MARK E. AMODEI, Nevada
  CHRIS STEWART, Utah
  E. SCOTT RIGELL, Virginia
  DAVID W. JOLLY, Florida
  DAVID YOUNG, Iowa
  EVAN H. JENKINS, West Virginia
  STEVEN M. PALAZZO, Mississippi

  NITA M. LOWEY, New York
  MARCY KAPTUR, Ohio
  PETER J. VISCLOSKY, Indiana
  JOSE E. SERRANO, New York
  ROSA L. DeLAURO, Connecticut
  DAVID E. PRICE, North Carolina
  LUCILLE ROYBAL-ALLARD, California
  SAM FARR, California
  CHAKA FATTAH, Pennsylvania
  SANFORD D. BISHOP, Jr., Georgia
  BARBARA LEE, California
  MICHAEL M. HONDA, California
  BETTY McCOLLUM, Minnesota
  STEVE ISRAEL, New York
  TIM RYAN, Ohio
  C.A.DUTCHRUPPERSBERGER,Maryland
  DEBBIE WASSERMAN SCHULTZ, Florida
  HENRY CUELLAR, Texas
  CHELLIE PINGREE, Maine
  MIKE QUIGLEY, Illinois
  DEREK KILMER, Washington

                William E. Smith, Clerk and Staff Director

                                   (ii)



                           W I T N E S S E S

                               __________
                                                                   Page
                                                                   Page
Bohman, Dr. Mary.................................................  2751
Jacobs-Young, Dr. Chavonda.......................................  2751
Ramaswamy, Dr. Sonny.............................................  2751
Reilly, Joseph...................................................  2751
Woteki, Dr. C. E.................................................  2751
Young, Michael...................................................  2751


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                                           Tuesday, March 24, 2015.

                USDA RESEARCH, EDUCATION, AND ECONOMICS

                               WITNESSES

DR. CATHERINE E. WOTEKI, UNDER SECRETARY, RESEARCH, EDUCATION AND 
    ECONOMICS, DEPARTMENT OF AGRICULTURE
DR. CHAVONDA JACOBS-YOUNG, ADMINISTRATOR, AGRICULTURAL RESEARCH 
    SERVICE, DEPARTMENT OF AGRICULTURE
DR. SONNY RAMASWAMY, DIRECTOR, NATIONAL INSTITUTE OF FOOD AND 
    AGRICULTURE
DR. MARY BOHMAN, ADMINISTRATOR, ECONOMIC RESEARCH SERVICE, DEPARTMENT 
    OF AGRICULTURE
JOSEPH REILLY, ADMINISTRATOR, NATIONAL AGRICULTURAL STATISTICS SERVICE
MICHAEL YOUNG, BUDGET OFFICER, DEPARTMENT OF AGRICULTURE

                       Introduction of Witnesses

    Mr. Aderholt. Well, good morning. The Subcommittee will 
come to order.
    I know Mr. Farr will be here shortly. And, hopefully, by 
the time we get to the end of my opening statement, he'll have 
a chance to make his remarks as we are on schedule. But we do 
want to get started. I will go ahead and make my opening 
remarks.
    I just wanted to welcome each of you here this morning, and 
thank you for being here.
    As I mentioned before, the Subcommittee is focusing on the 
themes of management, targeting, and promotion this year. We 
want to ensure that research funds are targeted the most 
important programs and problems and that, through research, we 
are promoting a productive agricultural sector and a safe food 
supply. We are reviewing the requests with these in mind as we 
go through the USDA's fiscal year 2016 budget request for 
research agencies.
    I would like to welcome our panel this morning.
    First of all, Dr. Cathy Woteki, Under Secretary for 
Research, Education, and Economics and Chief Scientist for the 
U.S. Department of Ag, to the Subcommittee.
    So welcome, Dr. Woteki, for being here.
    Also, we are equally happy to have Dr. Chavonda Jacobs-
Young, Administrator of the Agricultural Research Service.
    Glad to have you here.
    Welcome back, Dr. Sonny Ramaswamy, Director of the National 
Institute of Food and Agriculture.
    Dr. Mary Bohman, Administrator for the Economic Research 
Service.
    Welcome. Good to have you here.
    Mr. Joe Reilly, Administrator of the National Agricultural 
Statistics Service.
    Welcome. Good to have you here.
    And welcome back again, Mr. Mike Young, Director of the 
Office of Budget and Program Analysis.
    On behalf of the Subcommittee, I would like to thank all of 
you and your staff for your hard work on agricultural research. 
You are the scientists. You are the professionals. You are the 
leaders that look at sort of the scientific questions that we 
have regarding agriculture.

                    Opening Statement--Mr. Aderholt

    USDA is proposing a $467-million increase over the fiscal 
year 2015 enacted levels for its research programs. This 
includes significant research increases of $206 million for ARS 
buildings and facilities, $125 million for the Agriculture and 
Food Research Initiative, $80 million to create two new 
innovation institutes, and $20 million for a new competitive 
grant program for land-grant colleges and universities. There 
is a myriad of other increases, decreases, closures, and 
transfers to the request as well.
    This hearing will allow the Subcommittee to thoroughly 
examine these and help us determine whether USDA is effectively 
administering its programs and meeting the Nation's needs as it 
comes to agricultural research.
    Given the sizable increase proposed by the budget request, 
I would be remiss if I didn't point out that we are operating 
in a very constrained funding environment, which we usually 
are, but this year as much as ever.
    We are bound by the spending caps under the existing law. 
And, of course, we will do our best to address the highest 
priorities and needs as we see best. But any increases most 
likely will have to be offset against other accounts and other 
programs that are in the bill.
    Before I close, I want to alert the Subcommittee that Mr. 
Farr and I are going to begin the question-and-answer period 
with a discussion on the New York Times article regarding the 
U.S. Meat Animal Research Center, which is referred to as MARC, 
in Clay Center, Nebraska.
    Given the seriousness of the allegations, our questions may 
take a few more minutes than usual. There are a number of 
important issues that we need to discuss and clarify for the 
record. So I ask for your patience on that.
    [The information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    Mr. Aderholt. So at this point let me ask our Ranking 
Member, Mr. Farr, if he has any opening remarks.

                       Opening Remarks--Mr. Farr

    Mr. Farr. Well, thank you very much, Mr. Chairman.
    And I do want to join with you in an intensive questioning 
on MARC. But, first of all, I would like to thank all the 
research staff for their service.
    And I am interested in the increases that you have asked 
for, particularly in the priorities for this sustainable small 
farms and the pollinator health and Colony Collapse Disorder.
    I never thought being elected to Congress would make me so 
interested in beekeepers until I tried to realize why none of 
the fruit trees on my property were germinating. And then I got 
my cousin, who is a beekeeper, to put beehives in there, and it 
really makes a difference. And he has lectured me all about the 
collapse of the colonies, and it is really a crisis. And so I 
am glad that you were looking at that.
    And as far as the Chairman's comment on caps, I find the 
thing is the Congress that puts those caps on can be the 
Congress that takes those caps off. It is in our hands. And we 
don't need to hide behind the law, but we are sometimes are 
reluctant to change it.
    But I also want to join with the chair in saying how the 
allegations in the New York Times story in January really did 
sort of hit the fan here. What really bothers me is I have been 
so fond of the agency and its ability to be responsive to my 
questions. But, in this case, what I get from my staff and the 
Committee staff is that you have been really extremely 
unresponsive to our efforts to get information about that 
story.
    I know that our staff had two unproductive meetings with 
officials of USDA. At the second meeting, they were told that 
they had to ask questions to get answers, nothing would be 
volunteered.
    So the staff sent out a long list of questions for the USDA 
about 10 days ago, and the Chairman and I got back a letter 
yesterday saying you would not answer the staff's questions. I 
don't know why you object so much to responding to the 
allegations in that story, and I hope that we can get to the 
bottom of it.
    It appears to me--and it is strange because that is not the 
way the Secretary has been in the past--that you are really 
trying to hide this story, to bury it.
    And, you know, this Committee doesn't like that, and we 
will make sure that we get to the bottom of this, no matter 
what. So this is something both the Chairman and I are very 
concerned about, and I hope that you will be responsive to our 
questions today.
    Thank you, Mr. Chairman.
    Mr. Aderholt. Thank you, Mr. Farr.
    Dr. Woteki, we will now turn to you for your opening 
statement. Of course, your full statement will be included in 
the record. But we will ask you now to proceed with that, and 
then we will go forward with questions.

                     Opening Statement--Dr. Woteki

    Ms. Woteki. Well, thank you, Chairman Aderholt. Good 
morning, Mr. Farr, and members of the Committee. My colleagues 
and I are pleased to be appearing before you again, and we 
request that our written testimony be entered into the record. 
I am going to very briefly summarize that testimony.
    When the Secretary appeared before the Committee several 
weeks ago, he underscored this Administration's unwavering 
commitment to strengthening the middle class and helping 
America's families get ahead.
    This mission area of Research, Education, and Economics 
(REE) helps accomplish this by supporting the critical research 
our country needs to keep our food supply safe, secure, and 
abundant, to improve nutrition for life-long health, to address 
climate and energy needs, and to ensure the sustainable use of 
our natural resources.
    For example, the Agricultural Research Service (ARS) works 
to enhance and protect agriculture and to transfer research 
results to the marketplace, where they serve the needs of a 
wide range of users.
    By funding research at land-grant universities as well as 
at other universities and research institutions, the National 
Institute of Food and Agriculture (NIFA) integrates research, 
education, and extension to ensure the groundbreaking 
discoveries go beyond the laboratory and make their way to the 
farms, ranches, classrooms, and communities across the country, 
where Americans put that knowledge into practice to improve 
their lives and their livelihoods.
    The economic research and analysis work of the Economic 
Research Service (ERS) guides policy throughout the Department 
as well as across the government and provides vital information 
to consumers, to researchers, and to the marketplace.
    And each year the National Agricultural Statistics Service 
(NASS) conducts surveys and produces accurate, timely, and 
useful statistical data on commodities comprising 97 percent of 
U.S. agricultural cash receipts.
    Farmers and ranchers, governments, commodity markets, 
businesses, as well as the research community, are among those 
who depend on these statistics to make informed decisions.
    With the enactment of the 2014 Farm Bill, the REE agencies, 
particularly NIFA, have focused a significant part of this past 
year to implementing reauthorized programs as well as 
initiating new programs and policies.
    Several of the new Farm Bill provisions enable USDA to 
partner with its stakeholders and to foster increased 
collaboration between research scientists and academia in 
government and the private sector. There are specific examples 
that in the question-and-answer period we would be happy to 
discuss with you of this additional partnering.
    Codifying the public-private partnerships, as the 2014 Farm 
Bill has done, ensures that more public funds are being 
leveraged with private sector dollars to make the most of the 
taxpayers' investment.
    Mr. Chairman, the President's fiscal year 2016 budget 
requests a total of $3.2 billion in discretionary funds for 
USDA's scientific research and statistical agencies, $1.5 
billion for the National Institute of Food and Agriculture, 
$1.4 billion for the intramural programs of the Agricultural 
Research Service.
    And these two agencies together really represent the lion's 
share of that request. The President's budget also requests $86 
million for our premiere agricultural economics research 
agency, the ERS, and $180 million for NASS, whose mission 
focuses on comprehensive data collection in the food and 
agricultural sectors.
    Mr. Chairman, our written testimony provides examples of 
accomplishments over this past year and highlights the many 
activities within the mission-area agencies that we are 
proposing to conduct in fiscal year 2016.
    And, in closing, I would like to highlight one very special 
event this year, in 2015, and that is that we are marking the 
125th anniversary of the second Morrill Act that established 
historically Black land-grant colleges and universities as part 
of the family of land-grant universities.
    Our enduring partnerships with these 1890 institutions has 
served as a catalyst for economic development in 
underrepresented communities across the country, particularly 
in rural communities, and it has provided access to higher 
education as well as the dissemination of the latest strategies 
and technologies based on agricultural research through 
cooperative extension.
    Mr. Chairman, the REE agencies are looking forward to 
working with you and the other members of this Subcommittee on 
these many challenges that are facing agriculture as well as 
the opportunities that lie before us in the coming months.
    We are happy to answer any questions that you and members 
of the Committee might have for us today.
    Mr. Aderholt. Well, thank you for your testimony.
    [The information follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
            
                      MEAT ANIMAL RESEARCH CENTER

    Mr. Aderholt. As I mentioned in my opening remarks, we want 
to start with the New York Times article about MARC in Clay 
Center, Nebraska.
    I have had a chance to see the article, to read it, to 
reread, to highlight, to look at different aspects of it. It is 
a difficult read in many ways because you are talking about 
living beings. I know that I have to step back and recognize 
the value of animal research.
    The article raised some serious questions. And, as Chairman 
of the Subcommittee overseeing the agency, you know, they are 
concerning. And that should go without saying.
    I understand that, when researchers mimic real-life 
situations, some animals may die unintentionally and even 
unexpectedly. But let me state and be very clear that we expect 
all animals to be treated humanely and that no type of abuse or 
mistreatment would be tolerated. Further, we expect the risk of 
premature death to be limited whenever possible.
    I believe ARS holds all of its animal research to a very 
high standard, especially in the care and handling of its 
animals. As such, the allegations in this article seem to be 
inconsistent with what I know of USDA's research in the past. 
Regardless, we have a number of questions about the article and 
the review Secretary Vilsack ordered, as well as the 
Department's next steps as we want to inquire about.
    Dr. Woteki and Dr. Jacobs-Young, we ask you to keep your 
answers brief when we ask this so that we can get through a 
number of questions so that we can have time to go through the 
extensive list.
    But I guess my first question would be: Were the animals 
abused or mistreated at MARC?
    Ms. Woteki. Mr. Aderholt, I can tell you that I share your 
concern about humane treatment of animals and also expect that 
everybody who is conducting research with animals in the animal 
research service, our intramural agency, or that we support in 
universities adheres to humane treatment of those animals that 
are in their care.
    We do not agree with the way that the New York Times 
characterized the animal research that is conducted at the Meat 
Animal Research Center in Clay Center. And the recently 
released report of the panel of experts in veterinary medicine 
and humane treatment of animals--their report, after having 
done a site visit at MARC, clearly states that animals are 
being treated well, that they found no evidence of abuse and--
--
    Mr. Aderholt. Have you investigated the specific instance 
of the animal abuse that is mentioned in the article?
    Ms. Woteki. There are two processes that we have set in 
place to do that investigation.
    The first is of this expert panel that I have just 
mentioned that is investigating and has issued its initial 
report about the policies that ARS has as well as the current 
status of animals at the Meat Animal Research Center.
    The second process is one that is going to be addressing 
those specific allegations, and that is an investigation, an 
audit, by the Inspector General of USDA, a very independent 
arm, as you know. So that investigation is specifically going 
to address those allegations.
    Mr. Aderholt. Well, the Department began receiving 
questions from the New York Times more than a year ago, back 
in--if my notes are right--February of 2014. And as far as we 
know, the Department didn't take any action until the article 
was published in January of 2015.
    So the question is: Why did the Department wait so long to 
look into animal care and what happened there at MARC?
    Ms. Woteki. Well, as we have shared with the Committee, we 
have shared with you the specific information that was provided 
to the New York Times in response to their questions. The 
policies that are in place for treatment of animals in research 
adhere to the principles that are in the Animal Welfare Act.
    The Administrator, Dr. Jacobs-Young, who is appearing with 
me today, over the course of this past year while those 
questions were coming in from the reporter, did look into 
specific questions to determine what the agency's responses 
were.
    So she has been maintaining----
    Mr. Aderholt. At what point did that occur?
    Ms. Woteki. That occurred through the course of the year as 
those questions were being addressed.
    Mr. Aderholt. So you are saying before January of 2015 you 
started looking into that?
    Ms. Woteki. Yes.
    Mr. Aderholt. Well, why did the Department wait to appoint 
an ombudsman for the animal welfare, wait so long about that?
    Ms. Woteki. Well, that was a new step that the 
Administrator undertook. I think it is a very positive one. And 
it does provide employees yet another route if they feel that 
there have been instances of abuse in which they can report 
them and they can do it confidentially.
    Mr. Aderholt. What role does the Department play when an 
agency such as ARS receives a large information request from 
some kind of news service?
    Ms. Woteki. If you are asking what internal mechanisms are 
brought into play, certainly our Office of Communications 
within the agency--each agency has an Office of 
Communications--begins addressing the questions, trying to find 
the appropriate people within the agency. And there are 
communications as well with the Office of Communications at the 
departmental level.

                        MARC EXPERT PANEL REVIEW

    Mr. Aderholt. Is the Department conducting a review of its 
management of this issue?
    Ms. Woteki. I think that we are in the fact that we have 
established an expert panel to review the situation at MARC and 
to continue its work in evaluating at least--well, at five 
other--three to five other facilities within the Agricultural 
Research Service to determine how well they are complying with 
the agency's policies.
    Mr. Aderholt. Based on what you know, do you think changes 
need to be made so there will be more transparency in the 
future?
    Ms. Woteki. Yes. And we are undertaking some of those 
steps. The expert panel that I referred to already in its 
report made some specific recommendations about steps to be 
undertaken, and we are moving quickly to implement them.
    Mr. Aderholt. What are the next steps for the Animal Care 
and Wellbeing Committee?
    Ms. Woteki. Well, the expert panel made four 
recommendations related to the Animal Care and Use Committee. 
So far, I have issued instructions to the agency that they 
reconstitute the committee--they have done so already--that the 
committee be appropriately trained--that training has begun--
and that, as first order of business, that they take up 
research protocols that will rescue lambs as well as in the 
calving operation that run into difficulties.
    Mr. Aderholt. Well, as you know, Representative Farr and I 
had asked the Inspector General to review the allegations made 
in the article.
    How are ARS and the Department working with the Inspector 
General's Office on this?
    Ms. Woteki. Well, the Inspector General has already begun 
the investigation. They have had their entrance interview with 
Dr. Jacobs-Young and staff and ARS. And I have also asked the 
Inspector General to put a high priority on this audit.
    I understand that it takes about 300 days for an Inspector 
General audit. We would like for that audit to be completed on 
a much shorter time scale, but that is a decision of the 
Inspector General to make.
    Mr. Aderholt. Well, you know, certainly we expect you to 
cooperate with the Inspector General's review and to respond to 
recommendations that they may make.
    And so I just want to, you know, ask you, are you committed 
to doing that?
    Ms. Woteki. Most definitely, sir.
    Mr. Aderholt. Thank you.
    Mr. Farr.

                           ANIMAL WELFARE ACT

    Mr. Farr. Well, thank you very much, Mr. Chairman.
    Dr. Woteki, you just stated in your remarks to the Chair 
that you follow the principles of the Animal Welfare Act.
    Why not just adopt it?
    Ms. Woteki. Well, at this point in time, we do have in 
place everything that the Animal Welfare Act requires with the 
exception of the Animal and Plant Health Inspection Service 
(APHIS) oversight and visits.
    Mr. Farr. What would be wrong with doing it that way? All 
the university labs have to abide it.
    Ms. Woteki. We actually think it would be a good idea. And 
Dr. Jacobs-Young has been in discussions with APHIS about that 
role.
    Mr. Farr. So that will be a recommendation that you will 
bring to Congress?
    Ms. Woteki. We could. At this point, though, we feel that 
we are voluntarily complying with the Animal Welfare Act. And 
with this addition----
    Mr. Farr. But the problem is----
    Ms. Woteki [continuing]. We will be able as well.
    Mr. Farr. Look, I think the difficulty we are having and 
the reason we are asking these questions is the Department just 
seems to be not admitting that there was a real screw-up here 
and mistakes were made, people weren't adequately trained or 
documented they were trained or certified.
    The review team that came in gave you a month and some time 
before they came, saying, ``We are coming,'' essentially, 
``Clean up your act because, when we get there, we are going to 
review it.'' I mean, that is not the way we think that reviews 
ought to be done.
    And I think there is just sort of this--it appears as if it 
is denial on part of the Department rather than--look, there is 
some problems when you have got a lot of territory out there.
    That is a huge piece of property. What, 50 square miles? I 
don't even think we have any ranches in California as big as 
what you have at that research facility. It is, what, 30,000 
acres?
    Ms. Jacobs-Young. 37,000 acres.
    Mr. Farr. 37,000 acres. That is bigger than almost any 
military base in the United States.
    And I understand that, you know, it is in animal research. 
So you are going to look at all kinds of animals and--but 
these--you know, the reports on how--the research going on with 
the lambs and so on, I don't know why you just say, ``Look, we 
have got to clean this up and we are going to have to clean it 
up.'' I mean, you ought to abide by the same standards that 
university research labs have to do, which are under the Animal 
Welfare Act and do get inspected by the APHIS.
    It might be much more confidence-building if we had that 
checks and balances rather than, ``We are doing all that we 
can.'' And I just--I think we are going to--and then why the 
response to our staff's letter that, ``We are not going to 
respond to you''? What was that all about? I mean, we were 
really shocked to get that letter yesterday.
    Ms. Woteki. Well, I feel, first of all, to your first line 
of questions, that the Agricultural Research Service has 
voluntarily adopted the Animal Welfare Act requirements. It has 
in place a constituted Animal Care and Use Committee, as the 
expert panel has confirmed.
    Mr. Farr. But that didn't work.
    Ms. Woteki. And we are in discussions with APHIS about 
implementing their site visits as well.
    Ms. Jacobs-Young. And I believe that there is a 
disagreement on whether it was working effectively or not. The 
panel came in and they had an opportunity to visit Clay Center, 
as you suggested. It was within a month. But as most animal 
researchers will know, you cannot undo damage to animals that 
has been done.
    And what they saw when they visited that site was that 
those animals have been well cared for, and that is not 
something that can turn on a dime. And so they were impressed 
by the animal welfare that they saw at the MARC center.
    Mr. Farr. Yeah. I am not talking about the site visit, per 
se. I am just talking about the fact that the process seems 
very awkward.
    I mean, the animal welfare strategy, has that been updated?
    Ms. Jacobs-Young. So what the panel found is that our 
policies and procedures are best practice, according to 
standard and industry standards. What happened at MARC is that 
they were not following the policies and procedures to the T.
    Mr. Farr. Exactly. Can't you just say that?
    Ms. Jacobs-Young. But it is about administrative procedures 
and not about animal welfare, that they took very good care of 
the animals. And that is documented. And so that is not the 
question.
    It is whether they did informal minutes or formal minutes 
and whether they filled out the correct paperwork around 
training. Those were the questions that the panel had. They saw 
over and over again how well the animals had been cared for.

                       EASYCARE SHEEP EXPERIMENT

    Mr. Farr. And you are defending the Easycare sheep 
experiment?
    Ms. Jacobs-Young. The Easycare sheep experiment is 
representative of 51 percent of the sheep industry. They 
pasture their sheep. Our job in research is to mimic those 
production practices so we can minimize the mortality. That is 
part of the research process.
    Mr. Farr. Yeah.
    Ms. Jacobs-Young. And I will just state that, if one were 
to go and Google ``pastured sheep,'' you would find the level 
of data around mortality. Predation, starvation, abandonment, 
that is a phenomena that is found in pasturing sheep.
    Mr. Farr. Well, I can understand, you know, that may be 
common practice in the private sector, which, obviously, this 
is why you have Animal Welfare Act-type things.
    But for the Federal Government with taxpayer money to go 
out and invest and do this, you know, cruel and inhumane 
treatment of animals in order to help the private sector get a 
better understanding of it, I mean, this is appalling. Nobody 
reads that story and wants to put any taxpayer money into that.
    Ms. Woteki. And, Mr. Farr, when we read the story, we 
responded the same way.
    Ms. Jacobs-Young. The same way.
    Ms. Woteki. We felt that it was not, though, an accurate 
representation of the research that is being conducted. The 
whole purpose on the Easycare sheep research is to improve the 
lot of pasture lambs and sheep.
    Mr. Farr. So now that you have read it and you were 
appalled by it, when are you going to end it?
    Ms. Woteki. Well, one of the things that I have already 
described to you is that we are implementing a way to rescue 
lambs that become in distress.
    So one of the first protocols when the newly instituted 
Animal Care and Use Committee begins to consider new research 
is specifically to do that.
    Mr. Farr. When does it end? Research projects have a 
beginning and an ending.
    Ms. Woteki. Yes, they do. And the research that ARS 
conducts is on a 5-year cycle of planning and evaluation. The 
sheep research will be evaluated at the point in time that that 
5-year plan comes up for review.
    It is also done in consultation with the sheep growers of 
this country who identify what the priorities are that they 
would like ARS to be addressing, what are the problems that 
they are having.
    Mr. Farr. Do you think, if the Animal Welfare Act was 
applied and you were inspected by APHIS, they would allow that 
experiment to continue?
    Ms. Woteki. Well, I think that is something that has been 
approved by an Animal Care and Use Committee, appropriately 
constituted, as the expert panel says, and that----
    Mr. Farr. Well, I wouldn't be asking about the Animal 
Welfare Act if I thought that that committee was effective. I 
think they are totally ineffective, and I think this article 
brought it out, that they missed the mark on this.
    My time is expired. Thank you.

                        MARC RESEARCH OVERSIGHT

    Mr. Aderholt. Mr. Yoder.
    Mr. Yoder. Thank you, Mr. Chairman.
    Just listening to the testimony this morning, it is very 
disturbing. We are reading this article, reviewing it again 
over here. It is hard to read. And if the allegations in this 
are correct, it is a really sad testament to the programs that 
are being authorized by Congress.
    Did Congress order these programs or are these programs 
that the USDA moved forward with based upon their own latitude, 
given their directives, or are these specific programs that 
Congress asked USDA to engage in?
    Ms. Woteki. Well, Mr. Yoder, I think you make a very 
appropriate point in your opening to the question in referring 
to these as allegations.
    At this point, the Inspector General is going to be doing 
an audit and will confirm whether or not there is any truth to 
them.
    Mr. Yoder. And I think we need to get to the bottom of 
that.
    Ms. Woteki. Yes.
    Mr. Yoder. And I appreciate the fact that we are all in 
agreement with the investigation.
    The question that I asked: Were these programs authorized 
by Congress or are these programs that the USDA moved forward 
with based upon their own directives that they have the 
authority to engage in?
    Ms. Woteki. Under the authorities granted to the Department 
by Congress, animal research, particularly in support of 
American agriculture----
    Mr. Yoder. Uh-huh.
    Ms. Woteki [continuing]. Is a priority.
    Mr. Yoder. But the means of how that is carried out, that 
is sort of left to the USDA to determine. These specific 
programs weren't ordered by Congress. I am just trying----
    Ms. Woteki. No.
    Mr. Yoder [continuing]. To figure out who decided to do 
these projects.
    Ms. Woteki. And the research is planned in consultation 
with the appropriate segment of animal agriculture that will 
highlight for ARS what the problems are that they are having.
    ARS designs the research programs, again, on a 5-year basis 
of planning and review. They do a consultation as well with the 
scientific community in developing those plans.
    And then the national plan is assigned out to a variety of 
different sites across the country, and at each of those sites 
the scientists then put together the specific plans, the 
questions that they are going to address at that site.

                             GRAIN RESEARCH

    Mr. Yoder. Well, it sounds like Congress needs to be more 
engaged in this and maybe be more direct about what the public 
expects to happen with their tax dollars and particularly the 
livestock industries themselves. I can't imagine that they are 
fully consulted on all of this either.
    So I look forward to engaging in an investigation and an 
understanding of the facts, and I know that is hopefully what 
the USDA wants as well. And we will get to the truth at some 
point.
    I come from Kansas. And I grew up on my family's farm that 
we have owned for generations. Kansas is a pretty big wheat 
producer, number one in the country.
    I am interested in our investment in wheat quality labs 
and, in particular, what the future holds for grain research. 
Kansas also produces corn and beans and many other grains.
    And we also have a water challenge, as many parts of the 
country do, and I am interested in how research into grain can 
help resolve some of those concerns long term.
    Ms. Woteki. Well, we have the agency administrators for the 
two agencies that are really the ones that are going to be 
conducting that research.
    We have been working over these last several years to much 
more closely coordinate the intramural research that ARS does 
with the extramural research that NIFA sponsors.
    And you can see in our budget request that there are 
several crosscutting initiatives, including in the plant 
sciences, specifically to your request about grain production.
    And I might ask Dr. Jacobs-Young and Dr. Ramaswamy to talk 
specifically within this budget request the new things related 
to grain research.
    Mr. Yoder. Great. Thank you.
    Ms. Jacobs-Young. Congressman Yoder, so one of the things 
that you already know is that in Manhattan, Kansas, we have one 
of our wheat quality laboratories. And we have three others 
located across the country.
    And we have been working very closely with the Wheat and 
Barley Scab Initiative, and we have already seen some 
significant improvements in the reduction of mycotoxins in 
wheat with this group working together.
    In fiscal year 2014, we had 131 projects in more than 27 
States. And so, once again, we have a lot of people coming 
together to work on some of these issues.
    In terms of the falling number test, we talked about that a 
little bit last year, but I am happy to report that this year 
that they found a brand new methodology that provides some 
consistency in the falling number test, which is an 80-year-old 
test, but also has great impact on our wheat prices. And so the 
ARS scientists have found a way to do this and reduce some of 
the inconsistency and variability in that testing.
    Mr. Ramaswamy. Good morning, Congressman Yoder. Good to see 
you again this year.
    Mr. Yoder. Good K-Stater there.
    Mr. Ramaswamy. Indeed. Thanks so much.
    In regard to NIFA's investments along with the ARS 
investments, we are really supporting new discoveries in the 
area of genetics, you know, improving the traits, the 
characteristics that wheat plants and other grain crops have 
that can resist the impact of pathogens, for example, scab or 
other pathogens that you might have.
    In addition to that, you know, we are also providing 
funding to develop varieties that are much more drought-
tolerant. So, you know, we have seen the persistent droughts 
here for the last few years. And so there is improved varieties 
that are coming along that would be part of the landscape that 
you would be seeing in Kansas and other parts of the country as 
well.
    And last, but not least, in regard to water itself, we are 
proposing to invest almost $25 million in water in 2016. We 
started in 2014. And, in fact, Congressman Farr had asked me 
some questions last year as well. So we are continuing to make 
investments in the area of water, particularly as it relates 
to, at the watershed level, what is happening to our water 
resources, improve the irrigation capacities, et cetera. Those 
are some of the things that we are doing as well.
    Mr. Yoder. Great. Thank you for your testimony.
    Thank you, Mr. Chairman.
    Mr. Aderholt. Mr. Bishop.

                       ATHENS POULTRY LABORATORY

    Mr. Bishop. Thank you very much.
    And let me once again welcome the panel.
    Dr. Woteki, Dr. Jacobs-Young, I was very pleased to see 
that the President's budget for fiscal year 2016 included an 
investment of $113.7 million for the new Agricultural Research 
Service Poultry Laboratory in Athens, Georgia, and it continues 
to be the Department's number one ARS priority again this year.
    As you may or may not know, I am the cochair of the 
Congressional Chicken Caucus, that Georgia is the number one 
producer and exporter of poultry products in the Nation.
    So can you give us a quick update on the current status of 
the Athens lab, what has been obligated thus far for the 
project, including how much has been obligated thus far, and 
what are the projected total costs, and when you expect the 
project to be completed.
    Ms. Woteki. Well, with the continuing challenge that Avian 
Influenza is posing, the importance of having an up-to-the-date 
research facility for our poultry infectious disease research 
is really high priority for us.
    I am going to be visiting the Southeast Poultry Research 
Lab (SEPRL) in a few weeks. It has been several years since I 
have been there. I am told that nothing has changed. So it is 
in very great need of a replacement.
    [The information follows:]

    In FY 2015, ARS allocated all $45 million of the funds 
appropriated within its Buildings and Facilities account toward 
the planning and design of the entire poultry lab facility and 
construction of a BSL-3 animal building/laboratory, waste 
treatment facility, and utility infrastructure. To date no 
funding has yet been obligated; however, ABS expects to issue a 
contract and obligate funds for facility design this summer.

    Dr. Jacobs-Young, anything you would like to add?
    Ms. Jacobs-Young. Yes. So, Congressman Bishop, just to give 
you an update, I don't have the dollars that have been 
obligated. We can follow up with that after the hearing.
    But with the $45 million--thank you all so much for 
providing us with that in fiscal year 2015--we will complete 
the planning and design of the entire 143,000-square-foot 
biocontainment facility. We will construct a BSL-3 facility 
with this $45 million, the waste, treatment, and utility 
infrastructure that will support the entire facility.
    Now, this part under the $45 million is scheduled to be 
completed in 2018. And with the request for 2016 for the 
balance of the funding, we will complete the remainder of the 
project, including the construction of a BSL-2 containment 
facility and modernization of some of the 10 small buildings 
that are there, and demolish 24 buildings. So we hope to have 
that all completed by 2022.

                        BYRON, GEORGIA FACILITY

    Mr. Bishop. Thank you.
    As you know, we have another ARS facility in Georgia, which 
just happens to be in my district in Byron, Georgia. The ARS 
Byron facility has been one of ARS's most successful areas of 
public-private partnership in agriculture and has been 
invaluable in the growth and expansion not only just of the 
pecan industry, but peaches and other fruits and vegetables, 
which are critical in the southeast.
    Unfortunately, the Byron facility has really seen better 
days and it is now just sort of limping along. And, frankly, it 
is in somewhat of a state of disrepair. Can you share with us 
ARS's plans for the Byron facility.
    And given the presence of our 1890 Fort Valley State 
University, which is almost next door, I think that there could 
be numerous opportunities for ARS and NIFA to work together to 
improve and expand the capacity of the Byron ARS facility.
    That facility has the world's greatest bank of pecan plants 
anywhere in the world, and it is a shame for it not to be 
maximized. Georgia, of course, leads the country in pecans, 
also. And, of course, we are beginning to export tremendous 
amounts of that.
    Can you talk about that just briefly.
    Ms. Jacobs-Young. So yes. So, in 2012, ARS completed a 
capital investment strategy for our building and facilities 
infrastructure.
    And, as you are aware, in fiscal year 2015, we had an 
opportunity to address our highest priority concern, which was 
SEPRL. And we have in the upcoming budget five facilities. And 
so, as we are able to fund those facilities coming down the 
list, we will have an opportunity to address more and more.
    But, in the interim--because I know you don't want to wait 
until we get all the way to Byron on the list--we have a 
request in fiscal year 2016 to increase our Repair and 
Maintenance (R&M) funding.
    Because we find that, if we can go in and address some of 
the major systems in the buildings and do some of the upkeep 
that is required for maintenance, that we won't have our 
buildings falling in such disrepair as they are waiting for 
their turn to come up on the list. So we requested an 
additional $20 million in our budget for R&M across ARS.

                        ATHENS RESEARCH FUNDING

    Mr. Bishop. Very quickly, I notice that the fiscal year 
2016 budget proposes a decrease of $2.8 million for two 
research projects that are currently being performed in Athens: 
molecular approaches for the characterization of food-borne 
pathogens and poultry and pre-harvest interventions for 
application during poultry production to reduce food-borne 
bacterial pathogens.
    Can you share with us the current status of these two 
projects and if there are sufficient funds available in fiscal 
year 2015 to complete them. Are the reductions that are 
proposed essentially in those two projects?
    Ms. Jacobs-Young. So, for Athens, in 2016, we have some 
projects that have been redirected. And so we have--we are part 
of the President's CARB initiative, the combating antimicrobial 
resistance bacteria initiative.
    And so one of the things that is happening is that Athens 
is receiving--so while they are receiving a reduction, they are 
receiving sort of a redirection. They are being redirected into 
our antimicrobial resistance bacteria initiative.
    Mr. Bishop. In Athens?
    Ms. Jacobs-Young. In Athens. At Athens.
    So as the Chairman mentioned earlier, you know, we have to 
often find straight cuts. And sometimes we have an opportunity 
to redirect into specific initiatives. And so, in this case, it 
is a redirection.
    Mr. Bishop. Thank you.
    Mr. Aderholt. Mr. Young.

                 PORCINE EPIDEMIC DIARRHEA VIRUS--PEDV

    Mr. Young. Thank you, Mr. Chairman.
    Folks, thanks for coming before us today, and thank you for 
your service.
    The viral hog disease, the PED virus that is out there, 
diagnosed about 2 years ago in 31 States, resulting in 
significant piglet loss, low sow productivity, so you have 
reduced pork production, higher prices. It is just really 
devastating, not just financially to Iowa farmers and hog 
farmers, but a really emotional toll that is being taken on 
folks, as you know. I thank goodness that it is not affecting 
food safety and human health.
    But the USDA has conditionally approved two companies to 
market vaccines against PEDV. How successful have these 
vaccines been? How high of a priority is this research in the 
ongoing research that you are doing?
    I want to hear, of course, that it is a high priority, but 
talk a little bit about the vaccines--how they are doing, the 
priority of the research, and where it is going.
    Ms. Woteki. Well, certainly, PEDV has been a high priority 
for us. It has also, as you have indicated, been a very high 
priority for hog farmers, which reflects how we set our 
priorities as well.
    I don't know that we are able to specifically address your 
question today about the vaccine effectiveness. We would be 
happy to provide additional information on that question for 
the record.
    But, Dr. Jacobs-Young, would you like to talk specifically 
about the directions that the ARS research on PEDV is going?
    Ms. Jacobs-Young. Yes. So in fiscal year 2015, we were able 
to support $900,000 toward PEDV. I think we had an opportunity 
to talk about it for the first time at the last hearing last 
year, because it is really new, since 2013.
    And so we have been working collaboratively with APHIS and 
industry to first develop a model that we can use to test the 
vaccines. What we found is, some of the vaccines, the efficacy 
was not as optimum as the scientists would have hoped.
    And so they have been working with those industries and 
APHIS to, first, help develop vaccines and, second, test the 
ones that are currently on the market. And that work is 
happening in Ames, Iowa.
    Mr. Young. How long do you think it takes to determine how 
the vaccines are doing? You don't have that information right 
now. But how long do you think it takes?
    Ms. Jacobs-Young. Well, it is difficult to say because what 
we are finding with the PEDV, which is the coronavirus, is that 
it has different strains and different levels of virulence.
    And one of the things that we found in the interim through 
the animal research is that the management practices are also 
very helpful as we find opportunities to address this with 
better vaccines and treatments.
    And so one of the things is: How is the disease carried 
from one animal to the next? Is it through the boots or on the 
gloves? And there is this feedback loop that they do. And I 
don't want to talk about what that entails, but it can impart 
some immunity in young piglets.
    And so there are some interim steps that are in place, but 
it is difficult to determine how long it will take until we 
have the optimum vaccine.
    Ms. Woteki. We have also been supporting some researchers 
in university settings who are also investigating this, and Dr. 
Ramaswamy can speak to that.
    Mr. Ramaswamy. Yeah. So in the very recent past, NIFA has 
provided funding to a consortium of universities and private 
enterprise that is in the process of developing newer vaccines 
to PEDV. It is led by Ohio State University, but Iowa State and 
others are partners in that as well.

                   ANTIMICROBIAL RESISTANCE RESEARCH

    Mr. Young. Appreciate your ongoing research on this and 
your commitment to this. As you know, this is very important.
    Antimicrobial resistance. You know, antibiotics have been 
helping farmers to treat sick animals, prevent diseases. The 
farmers are trying to provide these at the lowest possible 
levels and doses, of course. Yet, there are groups out there 
who don't want to see any use of antibiotics due to concerns of 
resistance.
    Dr. Jacobs-Young, your written testimony highlights the 
President's budget request for antibiotic and antimicrobial 
resistance research. The justification points out that more 
research is needed to understand the root causes behind 
antibiotic-resistant bacteria.
    If these causes are not fully understood, why has the 
President requested $10 million to develop alternatives to 
antibiotics? Wouldn't it be more prudent first to identify the 
causes before trying to develop a solution?
    Ms. Woteki. Well, let me take a first crack at responding 
to you, Mr. Young.
    It is prudent for us to be continuing to conduct research 
to understand the underlying mechanisms and, at the same time, 
while the Food and Drug Administration is moving forward in its 
labeling proposals that will reduce medically important 
antibiotics use in farm animals, that our research also be 
supporting the development of effective alternatives for 
producers.
    So we think that that is just a prudent way to proceed, 
continue some basic research, but, very importantly, provide 
research that is going to develop useful alternative methods 
for farmers who are producing very important livestock for 
meat, milk, and other purposes.
    Mr. Young. Thank you.
    Thank you, Mr. Chairman, for the time. I yield back, if I 
had any left.
    Mr. Aderholt. You don't have any left.
    Ms. Pingree.

                       INTEGRATED PEST MANAGEMENT

    Ms. Pingree. Thank you, Mr. Chair.
    Thank you to the panel for being here today.
    I want to ask a little bit about integrated pest management 
and some concerns I have about the funding there. Obviously, 
that is an important part of the research that you do.
    It gives farmers important data and provides innovative 
solutions. There is a lot of wonderful things that come out of 
it, and it has certainly been a good collaborative approach.
    I want to mention the benefits to my State, besides 
agricultural. The Northeast Region IPM Center at Cornell has 
been a really important resource for some of the researchers in 
our State who are trying to understand some of the challenges 
we have through the incredible increase in tick-borne diseases: 
Lyme diseases, Powassan, and ticks I can't even pronounce the 
name of.
    But they are increasingly a problem and a huge challenge 
for us in the Northeast and other parts of the country where 
they hit hardest in our summer season. They are dangerous to 
children, adults, and tourists.
    They are just a big problem. And we don't know a lot about 
them, about the control of them and how to handle them. So the 
research dollars that have been available to us have been very 
important.
    So I just want to express my concerns that since this is a 
critical program and we are always looking for information 
about ever-expanding pests and diseases, that there is no 
increase in the budget. How we are going to handle no increases 
in funding in something that is just such a critical problem?
    Ms. Woteki. Well, you are absolutely right that integrated 
pest management is an enormously important tool, and the 
programmatic activities are largely within the National 
Institute of Food and Agriculture. We are very privileged to 
have a card-carrying entomologist as the director, Dr. 
Ramaswamy.
    So do you want to address the IPM issues in the budget?
    Mr. Ramaswamy. Indeed. Thanks so much, Dr. Woteki.
    And, Congresswoman Pingree, good to see you again here this 
morning.
    And you are absolutely correct that integrated pest 
management is a critical need that we have got, particularly in 
the context of the variability in the climate that we are 
seeing and changes in the varieties of crops that we are 
growing and on and on. There is a whole series of things that 
are happening.
    And so we need to be really focused on investing 
intellectual and monetary resources. And so, within NIFA's 
portfolio funding, we have the crop protection and pest 
management line of funding that is approximately about $17 
million.
    In addition to that, funding is also provided through the 
experiment stations and extension service through the Hatch Act 
and the Smith-Lever Act. And our competitive grants programs, 
Agriculture and Food Research Initiative and the Specialty Crop 
Research Initiative, are also funding opportunities that are 
provided. And the people at the University of Maine as well as 
the Northeastern IPM Center at Cornell have been very 
successful at receiving funding.
    And we are continuing to keep our eye on it and we hope--
and, in addition to that, by the way, there is the IR-4, the 
Inter-Regional 4 Program, which is about minor crops, in 
quotes, for which we need to have tools available as well.
    So there are several different parts of our budget that is, 
you know, trying to address these questions, whether it is the 
new pest that we are seeing--insect pest that we are seeing or 
pathogens or weeds that we are seeing, and trying to come up 
with the tools and technologies to make sure that we can deal 
with those.
    Ms. Pingree. Well, thank you.

                            ORGANIC RESEARCH

    And I just want to reiterate my concern about making sure 
it is adequately funded. It is certainly one of the ways where 
people who aren't necessarily directly involved in agriculture 
or farming see the benefit of the research that you do. And, as 
you say, these problems are increasing and certainly as some of 
our weather changes.
    One other question--I think I have time--a little bit about 
organic research. We can all debate this, you know, here or 
anywhere else about the demand for organic products, but the 
fact is, in the marketplace demand is just soaring, people's 
interest in pursuing purchasing organic products, finding more 
available. And the last thing we want to have is more of those 
products having to be produced outside of the United States.
    It is a place where we are falling behind. The National 
Organic Standards Board released a list of unmet organic 
research priorities, everything from curing mastitis in cows 
without the use of antibiotics or how to deal with pesticide 
residue in compost. It just seems that these are important 
questions for organic farmers. They are important for 
conventional farmers.
    So can you talk a little bit--I don't have a lot of time 
left--but about the role that it plays. And perhaps offline you 
could give me for the record an accounting of how much organic 
research has been done through the AFRI program in the last 5 
years. I know you can't get all of that in a limited time, but 
I just want to emphasize the critical importance of it.
    Ms. Woteki. Well, organic research is also an area in which 
actually all four of the agencies that are here have been 
playing a role. The Organic Research and Extension Initiative 
that is administered, a competitive program within NIFA, is a 
good example. We are really pleased that Congress reauthorized 
that in the Farm Bill.
    ARS has been increasingly devoting its program to organic 
farming methods as well and the research to undergird those. 
ERS has done some very important groundbreaking research from 
the economic perspective on organic farmers. And NASS has been 
conducting surveys and collecting data and information that 
helps to inform the programs and policies.
    So we are happy to consolidate all of that and provide it 
to you.
    Ms. Pingree. Great. I am out of time, but I would really 
appreciate being able to kind of look across all sectors and 
see what we are doing and not getting done.
    Thank you.
    Mr. Aderholt. Mr. Rooney.

                      MEAT ANIMAL RESEARCH CENTER

    Mr. Rooney. Thank you, Mr. Chairman.
    My question doesn't revolve around this New York Times 
article, but I wanted to just comment on it. Obviously, you 
know, I have one of the largest beef-producing districts in the 
State of Florida and on the east coast.
    And I can tell you one of my issues with this article isn't 
so much that--you know, obviously, it sounds like it was a 
house of horrors, what was going on there.
    And that there is an Inspector General (IG) report--I can 
get that and I am glad about that. I don't know that maybe--you 
know, that there should be a suspension of operations there 
pending the IG report's outcome, but it sure sounds like 
something of that magnitude may be warranted here.
    And some of the things that they were doing--here is what 
really concerns me, is that my beef producers and my cowboys 
and all the people that work in that industry in my district 
are some of the best people that I have ever met.
    And some of the practices that they are doing here at this 
facility is something that would be so foreign to them that 
they would clearly find egregious, especially with regard to 
breeding twins and triplets and what have you.
    That is something that I don't think that I have ever heard 
of any rancher that I work with actually wanting. And they 
actually allude to that in this article, that, ``Well, we are 
not doing anything that the ranchers didn't want.'' That is 
bull you know what.
    And so I just think that one of the unintended consequences 
that I am really worried that may come out of this report might 
actually go to punish these producers that are in my district 
for the sins that were committed in Nebraska.
    And so I just hope, as this IG investigation goes forward, 
that even though there may be some bad actors out there in the 
countryside, that what is happening by our U.S. taxpayer-funded 
dollars at this facility is not necessarily--or should not be 
reflected on the actual beef producers that are in our 
districts, I hope. That wasn't really a question. That was just 
a request.

                            CITRUS GREENING

    But on a completely different note, the other major 
industry in my district deals with citrus. And with the 
establishment of the Emergency Citrus Disease Research and 
Extension Program, your agency has done good work in finding a 
long-term solution to the horrific effects of greening. And I 
thank you.
    And I am also happy that my alma mater, the University of 
Florida, received funds to get our research working on four of 
the seven projects funded in this first year. I understand the 
challenges associated with starting the entire program from 
scratch, and I am hopeful that we will see good results when 
the project is selected for funding.
    My question is: With the implementation of the two-step 
review, one industry relevance and the other scientific, what 
weight is there on industry concern? And were all of the 
proposals considered by the science panel regardless of their 
industry ranking? And then, finally, was the industry ranking 
communicated to the science panel reviewers?
    Thank you.
    Ms. Woteki. Mr. Rooney, I would like to have Dr. Ramaswamy 
respond to you in detail about the process that NIFA has used 
in implementing the research program on citrus greening within 
the Specialty Crop Research Initiative.
    I think the important point to make is that the farm bill 
did designate that the priorities for the program be developed 
by that special committee that is representative of the three 
States where this is such a large problem: Florida, Texas, and 
California. So the citrus industry representatives on that 
committee are setting the priorities for the program.
    And Dr. Ramaswamy can speak specifically to the procedures 
that they used.
    Mr. Ramaswamy. Indeed. Thanks very much, Dr. Woteki.
    And good morning, Mr. Rooney.
    Mr. Rooney. Good morning.
    Mr. Ramaswamy. And appreciate your vote of confidence, as 
it were, in the first round that we did. Indeed, University of 
Florida did quite well in getting some of those grants as well.
    And we hope that the discoveries being made will indeed 
help our citrus producers in America, particularly in Florida, 
have a crop because we have got over 75 percent of the crop now 
infected.
    And so we need some tools very, very quickly. And so that 
is the intent, is over the long term that there will be the 
sustainable tools that are available to support our citrus 
producers.
    Very specifically, in regards to your question and the two-
step process, the first round is the industry relevance review, 
was that information made available to the second round--this 
is the scientific merit review--the answer is yes.
    Indeed, the written comments were provided. And, also, 
there was a reminder to the panel that this sort of a two-step 
process is happening. It was also very clearly articulated in 
the request for applications that went out as well. So 
everybody knew that this was going to happen.
    After the first round was done, we provided a report to the 
National Agricultural Research, Extension, Education, and the 
Economics Advisory Board, the NAREEE board, which has a 
subcommittee of specialty crops and then the citrus disease 
subcommittee. We provided a report.
    They have looked at the process that we used, and they have 
provided us some feedback and, also, the priorities for the 
next year, this upcoming year, the new request for applications 
that come out. And we have incorporated all of that verbatim 
into how we undertake the process this next go-around.
    Ms. Woteki. And we did have one really significant 
accomplishment last year with respect to citrus greening. ARS 
released an orange rootstock that is tolerant to citrus 
greening. So that is a major step forward.
    Mr. Rooney. Thank you.
    Thank you, Mr. Chairman. Yield back.
    Mr. Aderholt. Mr. Valadao.

                           LISTERIA RESEARCH

    Mr. Valadao. Thank you, Chairman.
    Thank you, Under Secretary, for spending some time with us 
this morning.
    I want to associate myself with the comments that Mr. 
Rooney made about some of our cattle producers. I, too, 
represent and happen to be someone who is very much involved in 
animal agriculture myself. Some of the things that were there 
were very much in opposition to anything that--I was raised as 
a farmer--what I have seen as practices that actually benefit 
the animal and animal production. So, to me, it was just mind-
boggling.
    But to my question, recently the apple industry experienced 
a multiple multi-state outbreak of listeria, which was linked 
to commercially produced and prepacked caramel apples. As you 
know, listeria can cause serious life-threatening illnesses.
    Dr. Jacobs-Young, are there any current or proposed 
research studies at ARS that focus on the prevention and/or 
treatment of listeria outbreaks within the commercial food 
industry?
    Ms. Jacobs-Young. Mr. Valadao, thank you for your question.
    Don't have the answer to that question specifically 
concerning listeria in apples, but we do have a lot of food 
safety work that is underway. The Meat Animal Research Center 
that we have been talking about this morning conducts a lot of 
that very important food safety work.
    For example, they have done the studies that show how--the 
distance which a feedlot should be located from fresh fruit and 
vegetable production. And so some of the work that we have 
underway I am sure can address that issue, and we can follow up 
with you after today.
    And I just wanted to also comment that, if you were to meet 
the MARC employees--the animal handlers and the scientists 
there, you would find the same group of passionate people about 
animals.
    [The information follows:]

    The ARS Food Safety Research Program has a long history in 
developing pathogen decontamination technologies for fresh 
fruits and vegetables. Researchers at the Eastern Regional 
Research Center in Wyndmoor, Pennsylvania developed industrial 
level decontamination systems and technologies for a variety of 
fruits, especially apples and melons. These technologies were 
developed in collaboration with the industry and have been 
implemented by various fruit and vegetable producers.
    In addition, ARS researchers in Beltsville, Maryland, in 
association with industry partners, have developed and patented 
pathogen decontamination/washing procedures for leafy greens. 
The sensitive nature of leafy greens requires very specialized 
decontamination processes. The most well-known is SmartWash 
which is considered the single, most effective tool in 
eliminating outbreaks of food-borne illness in produce.
    Contaminated produce is considered one of the most critical 
aspects of the ARS Food Safety Program. To ensure that 
developed technologies have impact, the program has close 
associations with industry, industry related commodity 
organizations such as United Fresh, and the Food and Drug 
Administration which regulates produce. Further, the ARS Food 
Safety Program ensures that representatives from industry and 
the FDA are part of the formal 5-year project review process. 
Annual reporting of accomplishments is also sent to industry, 
and State and Federal regulatory agencies for updates.
    ARS research activity related to Listeria in fiscal year 
2015 is estimated at $4.7 million.

    Mr. Valadao. When these situations occur, a solution is 
needed quickly. As everyone knows, research and investigation 
responses do not happen overnight.
    Can you provide your thoughts on how quickly research 
regarding these issues can begin to assist industries that need 
immediate assistance.
    Ms. Woteki. Well, in planning our research programs, 
particularly with respect to food-borne pathogens, we work 
closely with the regulatory agencies, Food and Drug 
Administration, and Food Safety and Inspection Service in 
setting the priorities.
    Listeria has been a priority pathogen for our programs for 
several years. We then make a decision whether it is most 
appropriate for that research to be conducted in the intramural 
program. Do we have the right people? Do we have the right 
facilities or is it more appropriate to be handled through 
university-based research?'', in which case those priorities 
are built into the grants programs that NIFA manages.
    So, again, listeria has been a priority pathogen for many 
years. I can't speak--I don't know whether Dr. Ramaswamy would 
be prepared today also to speak specifically about listeria in 
apples, because this was a relatively new occurrence of that 
pairing.
    But are you up to it today?
    Mr. Ramaswamy. No. And we will have to get you that 
information, whether indeed we are investing very specifically 
in apples.
    But, in general, listeria is a critically important food 
safety consideration. So we are investing significant resources 
in addressing listeria issues, including developing sensors and 
other approaches for diagnostics as well.
    [The information follows:]

    In 2014, an outbreak of listeriosis occurred in 
commercially produced, prepackaged caramel apples made from 
Bidart Bros. apples in Bakersfield, California. Listeriorsis is 
a very severe foodborne illness; 34 people were hospitalized 
and at least 3 people died.
    NIFA is not funding any specific activities to identify the 
risk of listeria on caramel apples. However, this work may 
compete for funds under the Critical Agricultural Research and 
Extension program or possibly the Exploratory Research program 
within the Agriculture and Food Research Initiative (AFRI).
    NIFA supported $0.5 million for research on novel methods 
for disinfection of apples to inactivate Listeria monocytogenes 
and other pathogens, and the agency is funding many projects to 
improve the understanding and control of Listeria monocytogenes 
in various foods. The findings may be applicable to controlling 
Listeria on apples. Using FY 2013 NIFA-funded capacity funds, 
about $1.4 million was provided to support listeria-related 
research at 1890 and 1862 land grant institutions. In addition, 
NIFA supported about $2.3 million in competitive grants. Newly 
funded projects for approximately $2 million under the AFRI 
program include studies using essential oils or other natural 
compounds to reduce or inactivate Listeria in foods; detection 
methods for Listeria virulence genes; and novel processing 
technologies using pulsed light to inactivate Listeria. These 
techniques may be successful on apples.

                           LISTERIA RESEARCH

    Mr. Valadao. All right. As I understand, the U.S. is the 
only country that has a zero-tolerance policy regarding 
listeria contamination.
    What is going on with these other countries? Have you 
looked into any of the research that they are doing, 
conducting, for an outbreak and how they handle the situation? 
How do they get away with this? Are we considering any type of 
harmonization between countries just to get a better 
understanding of how it works for them and how it doesn't work 
for us?
    Ms. Woteki. Well, the questions about harmonization really 
go to the regulatory agencies as opposed to the research 
agencies. We certainly are in consultation with them, provide 
evidence from our research to help to inform their program and 
policy decisions.
    Those questions about harmonizing approaches between 
regulatory agencies and different countries for produce should 
be addressed to the Food and Drug Administration.
    Mr. Valadao. Well, I am specifically asking--have you look 
into any of the research they use to base this? If we are the 
only one that is zero-tolerant and they are not, have you 
looked into the research they have used to make the decisions 
for their agencies?
    Ms. Woteki. Well, the scientists who are planning our 
research program certainly are up to date on the research that 
is being conducted in other countries.
    You know, with different legal approaches towards food 
safety in different countries, that might be part of the reason 
why they are coming to different regulatory decisions based on 
the same scientific evidence.
    Mr. Valadao. Thank you.
    Thank you, Chairman.
    Mr. Aderholt. Ms. DeLauro.

                      MEAT ANIMAL RESEARCH CENTER

    Ms. DeLauro. Thank you very much, Mr. Chairman.
    To, I guess, Dr. Jacobs-Young or Dr. Woteki, I share 
similar concerns as my colleagues have expressed about the 
neglect and abuse of the Animal Research Center in Nebraska.
    My understanding is Subcommittee staff has met several 
times with all of you and several times has not received 
substantive responses in this area. Obviously, we find it 
unacceptable. The findings of ARS Animal Handling and Welfare 
Review Panel raised red flags, and at least it is the view that 
we haven't been able to get real answers.
    Let me just try to ask a couple of questions, if I might, 
in this regard. You have asked the review panel, the Vilsack 
panel, to look at three to five additional ARS facilities that 
do livestock research.
    How many ARS facilities handle animals?
    Ms. Jacobs-Young. Approximately 50.
    Ms. DeLauro. What do you know about similar failures at 
the--is it IACUC, the Institutional Animal Care and Use 
Committee?--at other ARS animal research facilities? Have you 
looked into similar failures at that effort?
    Ms. Jacobs-Young. Congresswoman DeLauro, in response to the 
New York Times article and the actions that were taken inside 
of ARS, we have developed a brand-new action plan. And what the 
panel did find is that our policies and procedures are up to 
date and they are adequate.
    But we need to ensure that each one of our locations is 
following those policies and procedures. And so I am hiring an 
individual that their sole job is to work with the animal 
research locations to ensure that they are following the 
policies and procedures, and I have named an ombudsman so that, 
if anyone has any concerns about anything that they have seen 
or heard in ARS, that they can come to that independent person.
    Ms. DeLauro. Well, let me just say, do we have access to 
this plan of action? I thought I heard you say that there is 
now a new plan of action, but there was a determination that 
the procedures and the policies were okay, that they were fine. 
So this plan of action then is, what, to verify that the 
procedures and policies are fine?
    I mean, my question is: Have you looked into this other--
this IACUC, which has a responsibility at other ARS animal 
research facilities? Are there similar failures that have been 
reported with regard to other efforts here? How are you going 
to determine the status of these IACUCs at each ARS facility 
that handles animals if the review panel is only looking at 
three to five facilities? You talked about 50 facilities. What 
are we going to find out from three to five facilities here?
    Ms. Woteki. You have asked a number of questions.
    The Secretary, when he requested the expert panel to do the 
review at MARC, also requested that ARS develop an action plan 
to respond to their recommendations, which is what Dr. Jacobs-
Young just referred to.
    Ms. DeLauro. But----
    Ms. Woteki. Your second question--set of questions about 
the Institutional Care and Use Committees (IACUC)----
    Ms. DeLauro. Right.
    Ms. Woteki [continuing]. At the remaining facilities, all 
of them are required to have Institutional Animal Care and Use 
Committees in place to review the research that is being 
proposed at all of those locations. So there----
    Ms. DeLauro. Well, but we identified that that was true of 
MARC. I have to do that because I have to be back at Labor HHS 
in about 2 or 3 minutes, where I am the Ranking Member.
    But, you know, MARC was in the same situation here, but we 
found real problems there. And I also understand that the 
review panel said that--and I quote--``There was no evidence of 
former review or approval of the proposed research by IACUC 
members. Furthermore, there is no evidence of regularly 
convened meetings of the IACUC.''
    So we don't have any information about any of these, 
whether or not there is similar difficulties with this process 
in terms of the facilities.
    Ms. Woteki. Yes. And we are taking two steps to respond to 
that. One is, as Dr. Jacobs-Young has said, in this plan that 
she's putting together to----
    Ms. DeLauro. So there isn't a plan yet?
    Ms. Woteki. There is a plan that is going to the Secretary 
by the end of this week, responding specifically to the 
recommendations of the Institutional Animal Care and Use 
Committee.
    Ms. DeLauro. Can this Committee get a copy of that 
document?
    Ms. Woteki. We certainly first have to submit it to the 
Secretary.
    Ms. DeLauro. No. I understand that.
    But after Secretary Vilsack gets it, which you said it 
would be at the end of the week--that is Friday, 3 days from 
now--at the same time, can we get a copy of that report?
    Ms. Woteki. And we will certainly discuss that with the 
Secretary about his sharing it with you.
    Ms. DeLauro. So we are not sure that this Committee can get 
a copy of it?
    Ms. Woteki. I think that we would be happy to come and talk 
with you about what is in it. After I have consulted with the 
Secretary, I am sure that he will be wanting to also share 
information with you.
    [The information follows:]

    In response to recent allegations concerning the 
mistreatment of animals at the US Meat Animal Research Center 
(USMARC), Secretary Vilsack convened an independent review 
panel under the National Agricultural Research, Extension, 
Education and Economics (NAREEE) Advisory Board to conduct a 
thorough review of animal handling protocols and procedures at 
USMARC, report its findings, and make recommendations where 
necessary to improve current oversight mechanisms.
    The panel issued a preliminary report on March 9, 2015, 
that found no evidence of animal cruelty or mistreatment at 
USMARC and included seven recommendations. The recommendations 
primarily focused on improving the processes used by the 
Center's Institutional Animal Care and Use Committee to provide 
oversight of the Center's research program. On March 18 the 
review panel convened a public teleconference to present its 
findings and accept public comments. The panel will review all 
comments received as it finalizes its report and provides it to 
the NAREEE Advisory Board. The NAREEE Board will then hold a 
public teleconference on April 14, to share their review of the 
expert panel report, offer their comments, and listen to public 
input. The final report by the independent panel is expected to 
be revised based on comments received through the 
teleconference.
    ARS has developed an action plan to address the independent 
review panel's recommendations with the goal of completing 
implementation by the end of April. As soon as the plan is 
finalized, ARS will provide an update to the Subcommittee.

    Ms. DeLauro. Uh-huh.
    Mr. Chairman, can I just ask one quick follow-up before I 
jump out?
    Mr. Aderholt. Sure.

         ASSESSMENT AND ACCREDITATION OF LABORATORY ANIMAL CARE

    Ms. DeLauro. Thank you.
    The Times asked why MARC is not a member of the Association 
for Assessment and Accreditation of Laboratory Animal Care 
(AAALAC). It is an organization that provides voluntary 
accreditation of 925 public and private labs in 40 countries 
that do research involving animals.
    In response, you said you were aware of the work that 
AAALAC does with non-Federal facilities. You also suggested 
that membership by the University of Nebraska at Lincoln, 
which, to quote you, ``owns a fraction of the animals at MARC'' 
would help MARC.
    Are you aware that AAALAC does, in fact, have Federal 
members, including the ARS Beltsville Research Center? Why is 
MARC not an accredited member? And, you know, I don't really 
want to hear that membership by UNL is sufficient. And why are 
other ARS facilities that have animals not accredited members?
    Ms. Woteki. Well, the organization we call for short 
``AAALAC.'' It is easier.
    Ms. DeLauro. ``AAALAC.'' Yes. Right.
    Ms. Woteki. The facility that you mentioned, ARS facility, 
is one in which the experimental animals are small laboratory 
animals. And so that is the one that I am familiar with and the 
one that you mention that does have AAALAC accreditation.
    It is certainly among the things that we are considering. 
But at this point in time MARC and the other large animal 
facilities are not under AAALAC accreditation.
    Ms. DeLauro. Well, that is my question, is why.
    Ms. Woteki. Well, primarily, the AAALAC accreditation has 
been focused on laboratory--not exclusively, but it has 
primarily been focused on small laboratory animals. They do 
have accreditation programs as well for larger animals. And we 
are----
    Ms. DeLauro. Well, they do livestock.
    Ms. Woteki. Yes.
    Ms. Jacobs-Young. We are actually meeting with the 
leadership of AAALAC next week. We are also working 
collaboratively with APHIS. And we are working to shore up, to 
fortify, the system we have inside of ARS to provide our 
internal structure.
    Ms. DeLauro. I think we have got some serious issues here, 
my friends, and I hope it would be transparent in whatever 
plans of action, whatever that you are doing to make it 
available and accessible to this committee.
    That was a devastating article. And to not have any real 
responses and action plans and the determination of where we 
are going from here and to--in fact, I will just use the word 
``stonewall'' staff in terms of getting responses, I think is 
pretty irresponsible.
    Thank you, Mr. Chairman.
    Mr. Aderholt. Dr. Harris.

                           SNAP FOOD CHOICES

    Dr. Harris. Thank you very much, Mr. Chairman.
    Thank you, everyone, for being here. I apologize. I am also 
over at the HHS hearing as well.
    But let me go ahead and ask some questions just about the 
Economic Research Service. Because I read through the 
testimony. There is some interesting things.
    On page 2 of the testimony, it says, ``Our research 
moreover touches on those who depend on SNAP and development 
program''.
    Let me go to page 4. ``Ongoing research will inform 
strategies to encourage healthy food choices for other food and 
nutrition assistance programs such as SNAP.''
    And I have got to ask--because I asked when the Director of 
SNAP was here the other day, can you place any restrictions on 
the food purchased with SNAP, and the answer is no, it is all 
in statute.
    So exactly how do you encourage healthy food choices when 
you can't actually say you can't buy a certain type of food 
product because it is not a healthy food choice in the SNAP 
program?
    Ms. Bohman. So the Economic Research Service looks at 
dietary choices by all Americans with a focus on low-income 
Americans who participate in USDA's nutrition programs.
    And through understanding what they eat and how they use 
SNAP, we can better identify what are the key problems and gaps 
in dietary choices and, also, what initiatives could be 
undertaken by the public and private sector.
    So we have funded research in behavioral economics, which 
looks at how people make food choices, and we have new work 
underway with retailers that we are funding.
    Dr. Harris. No. I understand that.
    But do you actually make recommendations about healthy food 
choices for the SNAP program? Could you advise Congress, ``Gee, 
are there changes we could make in statute that would make it a 
healthier food program?''
    Ms. Bohman. Well, we don't make recommendations, but our 
research, I believe, would be very valuable for Congress----
    Dr. Harris. Could inform that. Sure.
    Ms. Bohman [continuing]. In terms of decisions. And we are 
funding research that----

                             MENU LABELING

    Dr. Harris. Thank you. That is fine. That is all I need to 
know about the SNAP program. That is what I thought. I thought 
that it wasn't going to be able to guide food choices.
    Under the menu labeling, it mentions that you have done a 
recent study that basically said--and I will quote from this--
``Results show that some simple rules of thumb are fairly 
reliable predictors of actual calorie content.'' And then the 
next sentence says, ``Nonetheless, menu labeling, as the FDA 
proposes.''
    So let me get it straight. Your research basically shows 
that, with a few simple rules of thumb, you can kind of make 
educated guesses about what a caloric content is going to be 
when you go into an establishment. Is that right?
    Ms. Bohman. Our----
    Dr. Harris. It is a pretty good predictor, using simple 
rules of thumb?
    Ms. Bohman. Our research shows that applying simple rules 
of thumb to foods on menus provides reasonably good guidance 
about their dietary content.
    Dr. Harris. So the implication of that would seem to mean 
that putting these huge regulations--and, again, I get visits 
from small food store owners in my district who might have a 
lunch buffet set out, saying, ``Look, I mean, we change a 
product. We have got to do menu labels that has got the exact 
calories. Who knows how big a portion the customer takes?'', et 
cetera, et cetera.
    What you are saying is, basically, some simple rules of 
thumb like you go into a pizza parlor and you say, ``You know, 
pepperoni and sausage probably are bad in terms of adding 
calories. You know, I am not sure I need an exact calorie 
count. And mushrooms and green peppers are probably good.''
    Is that what you mean by simple rules of thumb, basically, 
what kind of food groups are high in fat, low in fat, high in 
calorie, low in calorie, as opposed to being very specific, as 
the FDA labeling apparently is going to require?
    Ms. Bohman. So you described a great deal, that we applied 
these kinds of common rules and then looked at a sample of 
menus and came up with the result that you quote.

                        SNAP DISTRIBUTION TIMING

    Dr. Harris. Thank you. That is what I imagined. I imagine 
it could be much simpler than the FDA proposal.
    One thing that came up--you know, I have some stores in my 
district that are in areas where a high percentage of the 
people are on SNAP. And one complaint they have is, first of 
all, it is hard to make a decision to move into that area 
because those are usually the economically challenged areas. 
But what they find is that the problem is that all the SNAP 
benefits are front-loaded at the beginning of the month.
    So they have a tremendous influx of customers in the first 
few days of the month, but they have to staff the store for the 
entire month, and have said, ``Look, wouldn't it make sense to 
just divide it, you know, the first half of the alphabet gets 
their benefits the 1st of the month, the second half of the 
alphabet the 16th of the month, so that we can smooth the 
economic activity in our stores and more providers will 
actually look at it as potentially profitable to come into 
those areas, which some people call food deserts? I mean, that 
is because stores don't want to come in.
    Is it really that difficult to do? My understanding is that 
it has been proposed a couple times in the past. But, I mean, 
would the ERS be the one to show that, in fact, yes, that 
actually has a positive economic impact on the profitability of 
a store that chooses to site in one of those locations?
    Ms. Bohman. So the economic research sort of sets its 
research agenda around issues with SNAP through meeting 
regularly. We have scheduled quarterly meetings and more 
frequent consultations with the Food and Nutrition Service. And 
I believe in the past we have looked at some timing issues 
around distribution, and I can follow up with more specifics. 
We can take on board your proposal and discuss with the Food 
and Nutrition Service.
    They also conduct some analysis that is very targeted 
towards program specifics using their program analysis division 
through work with consultants. And we will bring this issue up 
and see if it has any opportunity.
    Dr. Harris. Thank you. I would appreciate that.
    Mr. Chairman, is there going to be a second round? I have 
one additional question. And I will leave it to the Chairman's 
choice.
    Mr. Aderholt. What is your question?
    Dr. Harris. I have just one additional question. Will there 
be a second round or should I go ahead with it and make it 
really brief?
    Mr. Aderholt. We will go into a second round.
    Dr. Harris. You are going to have a second round. Then, I 
will be patient. Thank you.

                      MEAT ANIMAL RESEARCH CENTER

    Mr. Aderholt. Let me go back.
    We could probably spend the whole morning on the New York 
Times article. But, just lastly, I wanted to close with this: 
Congressman Farr had asked a question about the response from 
USDA from the Subcommittee's questions that we sent over, and I 
don't think you really answered the question as to why USDA 
didn't answer the question.
    Could you let me know? Because we got the response back, 
and it is basically just a recap of the New York Times article, 
and just a response to that. So we had asked some very specific 
questions on that and just want an answer to why you didn't 
answer the question that was posed to you.
    Ms. Woteki. We have provided to you the responses that we 
provided to the New York Times. The questions that were raised 
relate to programs that ended many years ago, allegations that 
are at this point under audit by the Inspector General.
    And we, on advice of counsel and consultation within the 
Department, sent you a letter with a great amount of 
information about the situation currently, which indicates from 
the expert panel as well as our own review that there is no 
abuse of animals occurring at the Meat Animal Research Center 
currently. And to those allegations of things that happened 
years ago, the Inspector General will be looking into that.
    Mr. Aderholt. So your attorneys advised you not to answer 
the questions that we had sent directly?
    Ms. Woteki. We had an internal consultation involving 
General Counsel, our Office of Communications, our Office of 
Congressional Relations, the usual consultations process that 
we go through internally in preparing and clearing documents 
that we send to the Congress.

                        SHEEP EXPERIMENT STATION

    Mr. Aderholt. Let me move on to the sheep experiment 
station.
    ARS brought a request proposal to close the sheep 
experiment station in Idaho. Funding would be transferred from 
the closed facility to three other ARS labs in the State.
    Last year the Committee denied the agency's reprogramming 
request to close that facility. And then last year the sheep 
industry and related research community came together to 
develop a plan to refocus the sheep experiment station.
    Did ARS take this plan into account when it developed the 
fiscal year 2016 budget request?
    Ms. Jacobs-Young. So after the denial of the reprogramming, 
we had an opportunity to--well, we talked to the University of 
Idaho prior to the denial. We talked to the sheep industry.
    And we had an opportunity to talk with--we had some public 
listening sessions with many people who were interested in the 
sheep station on both sides, both on keeping it open and on 
closing. So we have two very strong communities that are 
involved.
    As the new Administrator--I have been onboard about a 
year--I have not seen the plan that has been proposed. I look 
forward to seeing it and having conversations about their ideas 
about how we could go forward with the sheep station. As it 
currently stands, it is not viable.
    Mr. Aderholt. I am sorry. It is not what?
    Ms. Jacobs-Young. Is not viable.
    Mr. Aderholt. So you say you have not actually had a chance 
to see the plan?
    Ms. Jacobs-Young. I have not seen the plan.
    Mr. Aderholt. So you don't have an opinion on the plan at 
this point?
    Ms. Jacobs-Young. No.
    Mr. Aderholt. So did ARS participate in the development of 
it?
    Ms. Jacobs-Young. Not to my knowledge.
    Mr. Aderholt. Why is the ARS requiring the station to cover 
the litigation costs related to its grazing leases?
    Ms. Jacobs-Young. That is typically how it is funded, at 
the location. And what is not possible to be funded at the 
location, it comes from headquarters. And those are--
    Mr. Aderholt. Does ARS require other labs to cover 
litigation costs related to their research?
    Ms. Jacobs-Young. What they are covering is environmental 
studies, environmental assessments. And yes.
    Mr. Aderholt. Are you aware that the sheep experiment 
station has nearly 50 years of research on the sage-grouse?
    Ms. Jacobs-Young. I am. I have had two meetings in the last 
week with stakeholders on the topic of sage-grouse.

                         INNOVATIONS INSTITUTES

    Mr. Aderholt. I think what needs to be said is the research 
is very important, as 11 western States and the community 
farmers and ranchers industry and our Federal agencies are 
trying to avoid the listing of the sage-grouse under the 
Endangered Species Act.
    Let me quickly go to one more question and propose this to 
Dr. Ramaswamy. The budget proposed $80 million in new funding 
to create two new innovation institutes, as I had mentioned in 
my opening remarks, the Biomanufacturing Institute and the 
Nanocellulosics Institute.
    The fiscal year 2015 budget request, NIFA proposed creating 
three new innovation institutes for pollinators, bioenergy 
manufacturing, and antimicrobial resistance.
    What would a Biomanufacturing Institute and a 
Nanocellulosics Institute accomplish?
    Mr. Ramaswamy. Thanks very much, Congressman Aderholt, for 
that question.
    In line with the Revitalizing American Manufacturing and 
Innovation Act that was passed last year and in line with the 
2014 Farm Bill itself, the idea behind these innovation 
institutes is to bring together public-private partnerships.
    And in this public-private partnership, the intent is not 
just, you know, the private enterprise bringing their money, 
but the expectation is that they also bring their intellectual 
resources as well.
    So the intent is for academia, government labs, the private 
sector, nongovernmental organizations, all to be working 
together to develop the knowledge that can result in--there is 
a hand-off that takes place and new economic enterprises are 
going to be resulting from that.
    And so we believe that the bio economy, the 
biomanufacturing piece of it, is a huge opportunity for the 
United States to continue to maintain its global preeminence. 
And that is why we have the request in the 2016 budget for 
these two particular areas.
    Mr. Aderholt. How will the funding be allocated and 
awarded?
    Mr. Ramaswamy. The funding is going to be offered 
competitively, and we are going to develop the rules of the 
competition and make it available.
    There is going to be an expectation that the, in quotes, 
``competitors'' are going to bring together this partnership of 
the public-private, nongovernmental, academic, government labs, 
et cetera.
    Mr. Aderholt. Okay. My time is up.
    Mr. Farr.

                         RESEARCH OPPORTUNITIES

    Mr. Farr. Thank you.
    I am not going to dwell anymore on MARC. I just want to 
point out that you want crisis, believe it or not, because that 
is the only way Congress pays attention to anything anymore.
    When I came here, we used to do Farm Bills and talk about 
long-range planning. We did the Reauthorization of the Primary 
and Secondary School Act. We used to do those things. But that 
is not the way Congress operates anymore. We only respond to 
crisis.
    And, frankly, I think that the--you know, the Chinese 
describe crisis as not only an opportunity of problems, but it 
is also a time for opportunity.
    And I think that that is what MARC does for you, is you can 
go start looking at something. And what it really paid 
attention to is there is a lot of people now knowing that the 
Department of Agriculture has its own farms, its own sort of 
operational basis called these animal--or these research 
facilities.
    And 50 of them, you said, are dealing with animal research. 
I mean, there is a lot of real estate there. There is a lot of 
interest here.
    And what I find difficult in this Committee is that we are 
essentially fighting silos in the modern time when we are 
trying to look at whole of government and the attitude here is 
there is too much government, we got to cut, squeeze, and trim, 
when we know that the silos that that whole of government 
operate are really effective, but they are all limited in the 
amount of money they can have.
    And what really concerns me is that, in the funding that we 
gave you--and I think Congress wants competitive grants. They 
like the idea that the best minds in this country can go and 
look into research to solve these difficult specific problems.
    And we have divided those into NIFA research and AFRI 
research. And, yet, of the money we appropriate, only 13 
percent of the applications submitted can get in NIFA, and only 
6 percent. Now, I am more interested in AFRI because it is sort 
of the specialty crop agriculture that Ms. Pingree talked 
about. This is tragic. And we are sort of leaving behind all 
this incredible talent out there.
    And so what I would just--and this is--I am just sort of 
making a suggestion because I know you are dealing with--you 
know, you are going to look at the whole of animal research 
now, figure out protocols and procedures that are going to be 
much more transparent and renewable and recordable and things 
like that. And, hopefully, you find an answer to that.
    But I would suggest that at the same time taking a look--
and, Dr. Ramaswamy, you know, here is the dilemma I am at. I 
represent and Mr. Valadao represents California. Our number one 
industry is agriculture, believe it or not. We grow--I don't 
know--almost 100 crops that no other States grow.
    Nobody knows that all the pistachios come from California 
or all the almonds come from California. I think all the 
walnuts come from California. I mean, that is why they call it 
the land of fruits and nuts. Not just the politicians, but the 
actual crops.
    And we are 36 million people, this big urban interface, 
encroachment on agriculture everywhere you go. Agriculture 
needs a lot of water. We can't give water to agriculture now 
because we need it for people. We have a huge fight going on.
    Why not try to use more--if we can only present 6 percent 
of our applications, why not use your resources to look at the 
whole of a State in what you are trying to do, what the 
President and the Secretary is trying to do, with the White 
House Rural Council, called the Rural Strategy?
    Why not start using also your research money for those 
States that are trying to answer these problems? Integrated 
pest management. We have got to find alternatives to pesticides 
and herbicides because our communities surround the ag fields 
and they don't want their kids being in schools that are being 
affected by drift and so on. Huge problem. And the list goes on 
and on.
    So IPM, organic, all these things which are sort of merging 
technologies, the question is: Why not use your investment 
award to invest those that are taking the chance, that are 
going meet you halfway, not just competitive grants, that we 
have got something and somebody else is going to do it, but 
looking at that whole of government? What is this kind of 
research also going to do for the sustainability of agriculture 
in California or other urban States and get more bang for your 
buck?
    And, actually, with your research facilities, where can 
those things be expanded? We can't afford the luxury--I mean, 
you have got, what, 48,000 acres there. I mean, that is huge. 
You know, that is huge. And if it was a military base, you 
would start talking about base realignment, BRAC. If somebody 
is going to call upon--if they want to shrink government, maybe 
we ought to shrink the real estate we own.
    So I think that there is a lot of challenges out there and 
this crisis allows you to kind of think outside the box and 
suggest, ``We are just not going to keep doing everything in 
silo form because we have got a get a better bang for the 
limited dollar.'' And I think every Member of Congress on this 
panel has been talking about that. So I hope that you can do 
that.
    Ms. Woteki. Well, Mr. Farr, we certainly agree with the 
point that you are making, and in this budget you can actually 
see many examples of us taking that approach. Colony Collapse 
Disorder (CCD).
    There are within the four agencies' budgets specific 
requests that relate to what the intramural and the extramural 
programs can do in addressing Colony Collapse Disorder.
    The plant genetics, plant genomics, that are important to 
agriculture are also reflected in coordinated budget requests. 
The combating antibiotic-resistant bacteria, another one.
    So you can see within the way that we have built this 
budget we are thinking exactly along the lines that you have 
described.
    Mr. Farr. Well, I hope to see more of it in being able to 
get more people involved rather than just 6 percent of the 
entire applications that are filed.
    Mr. Ramaswamy. And we are addressing it, if I may, Mr. 
Chairman, very quickly. So Winston Churchill is supposed to 
have said, ``Crisis is a terrible thing to waste.'' And we are 
using that sort of an approach in thinking of how do we deploy 
the resources.
    And, like you, we are deeply interested in ensuring that we 
bring together the best brains to address these challenges. We 
are concerned as well, and we hope that you collectively would 
see the value in investing resources--the commensurate 
resources that we need for addressing these sorts of global 
challenges.
    Mr. Aderholt. Dr. Harris.

                             MENU LABELING

    Dr. Harris. Thank you very much. And thank you, Mr. 
Chairman, for a second round.
    Let me just follow up with one question about that menu-
labeling study, if I can, with Dr. Bohman.
    Did you find in your study that there are just some people 
who just don't care about calories? I mean, no matter what is 
on that board, they are going to eat what they want?
    Ms. Bohman. Well, in our research and other research, we 
see that Americans, in general, do not follow dietary and 
nutrition advice, but it comes at a great cost to society.
    And so we are investigating different strategies and what 
would be the outcomes of strategies, such as taxes on poor-
quality foods, such as nutrition education, and other 
strategies to improve the dietary quality in Americans.
    Dr. Harris. But does your study suggest that, in those type 
of people that putting up the calories just doesn't make a 
difference, I mean, they just disregard it--I mean, I remember 
walking into a pizza restaurant in New York and it was kind of 
confusing because I thought it was the prices for a second. You 
know, it had the calories.
    Ms. Bohman. Our study did not look at how people responded. 
We looked at these rules of thumb and to what extent they 
covered the dietary advice.

                   ANTIMICROBIAL RESISTANCE RESEARCH

    Dr. Harris. Sure. Now, the antibiotic use, all of you are 
doing the antibiotics.
    Ms. Woteki. Right.
    Dr. Harris. Good. Okay.
    Because I have got to ask a question. Because this is an 
ongoing question in my State, actually. In Maryland, we have a 
huge poultry industry. It is a big issue. And, you know, the 
legislature even this week is considering its own, you know, 
antibiotic-use bill.
    But the fact that you are all still looking at it would 
imply to me that the final answer really isn't known about what 
the effect is and what the best way to balance the economic 
cost with the potential health cost.
    Is that a good assessment? Do we have the answer to, how we 
are going to solve this problem? Because in my State, I think 
the legislature is about to think they do, but I find that a 
little hard to believe.
    Ms. Woteki. Well, we do know that, under FDA guidance, that 
we are phasing out as a country the use of medically important 
antibiotics in agricultural use.
    Dr. Harris. And that is important to be done really 
nationwide, not in one State or another. I mean, just as a 
physician, I would think it is best applied across the entire 
spectrum of product. And that is what I imagine.
    Now, I just have one comment. Look, I am glad you all are 
rehabilitating Building 307 in Beltsville. I think it will be a 
good facility. I am glad to see it is in the budget.

                             CHESAPEAKE BAY

    Let me just ask--and I think this is also with the ERS 
because there was reference made to the Chesapeake Bay. And, as 
you know, there are huge controversies in the Bay.
    I mean, the last election was allegedly about our rain tax, 
which was a direct result of the Wildlife Habitat Incentives 
Program (WHIP) programs and the implementations that had to do 
with modeling of how we are going to help solve the problems in 
the Chesapeake Bay.
    When I first came to Congress in 2011, I believe the USDA 
at that time had just published a study--it may have been 
within the Natural Resources Conservation Service (NRCS)--that 
was kind of the Department of Agriculture approach, and then 
the EPA had their approach.
    And what the Farm Bureau told me was, ``If you look at 
these two models, they are very different models. They come to 
very different conclusions.''
    And, yet, we are about to institute regulations that affect 
real people's lives, in my district, mostly farmers, because 
the EPA modeling would suggest that that is where you are going 
to have to put most of the burden.
    What has been done since 2011 to reconcile those modeling 
differences between the USDA and the EPA?
    Ms. Bohman. Dr. Harris, I will have to follow up with the 
exact answer to your specific question. But ERS undertook its 
research because there is a gap in knowledge on the best 
strategies for dealing with the Chesapeake Bay and farmers' 
participation in improving water quality. And we----
    Dr. Harris. If I could just interrupt, do you think that 
gap in knowledge still exists?
    Ms. Bohman. I think we have made a contribution to 
improving the knowledge base for strategy by identifying ways 
to target the strategy by looking at alternatives, such as 
trading. So we have added to that. I believe it is an area 
there is still a need for more research, but it is one where we 
have made a contribution.
    Dr. Harris. And thank you for your honesty in that. Because 
what I really worry about is we are implementing--as you know, 
we had a phosphorous management tool that was going to be 
implemented, and, fortunately, the new governor stopped it.
    We are implementing strategies that literally will put our 
farmers out of business if they are not done carefully and 
thoughtfully and with, I hope, some of the expertise that you 
can bring to the table about balancing an economic cost, which 
is tremendous of something like a phosphorous management tool, 
with the--as you say, with the benefit for which there might be 
a gap in knowledge that still exists.
    So thank you very much for looking into that.
    And I yield back, Mr. Chairman.
    Mr. Aderholt. Ms. Pingree.

                     ANTIBIOTIC USE IN ANIMAL FEED

    Ms. Pingree. Thank you, Mr. Chair.
    I have one relatively simple question. But I will just 
say--because it has come up a few times in our questions today 
on the issues around antibiotics used in animal feed, 
especially antibiotics that are critically, medically 
important--it just seems like today there is an awful lot of 
research out there and an enormous amount of concern about the 
diminishing availability of antibiotics that are available to 
hospitals, doctors, those that critically use them.
    It seems to me really beneficial that an emphasis is being 
placed on this in the President's budget and the Department is 
looking into it. And I think, in the long run, it will be very 
helpful to our agricultural producers.
    We can think sometimes on this Committee or other 
Committees, Agriculture, that we write the policy, but in the 
end, it has a lot to do with consumer demand.
    And, as I have mentioned earlier, you know, the recent 
announcement by McDonald's that they want to buy antibiotic-
free chicken is going to change the marketplace tremendously, 
and chicken producers are already worrying about how to deal 
with that.
    Having that critical research about how to make the 
transition, what will happen in the poultry industry, to me, 
seems very critical. In the end, it sort of doesn't matter what 
we think up here because, in the end, that is what the consumer 
is saying, and they make the ultimate decision.
    And I am pleased to see that the consumer has been reading 
the newspaper and worrying about it and wants to do the right 
thing for their kids. So thank you for keeping an emphasis on 
that.

                      AGRICULTURE IN THE CLASSROOM

    My relatively minor question is about Agriculture in the 
Classroom, a program that is funded at only $552,000. When we 
talk about the raising age of farmers there is a lot of concern 
about who will be the next generation of farmers in our 
country. And, at the same time, there is a lot of interest on 
the part of young people at seeing agriculture in a different 
way, getting involved in agriculture, taking over the family 
farm or a whole variety of things.
    So I know the President's not funding this in the USDA 
budget. It is being moved into the Department of Education and 
sort of under all STEM programs. I am a huge STEM fan. But now 
it is going to be kind of combined with engineering, NASA, you 
know, everything out there. And I just want to express some 
concerns that this has been a beneficial program. It is 
relatively minor funding.
    And if we really want to give young people the opportunity 
to understand future careers and the tools to go into it, I 
just want to raise some concern that, while there might be some 
efficiencies here in putting it under STEM and putting it in 
the Department of Education, I am just worried it is going to 
get lost.
    Ms. Woteki. Well, thank you very much for expressing that 
concern. We also think it is very important that students be 
exposed to information about where their food comes and that 
this be part of the curriculum in schools, elementary as well 
as high schools.
    So in the transfer, if it does occur, if it is approved, we 
would certainly be engaging, as we have already, with the 
Department of Education to emphasize how important integrating 
agricultural education is in the school curriculum and would 
want to see a continued emphasis on ag in the classroom.
    Ms. Pingree. Great. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. Aderholt. Okay. Thank you, Ms. Pingree.
    Well, thanks to the panel for being here today. Glad we 
could have this discussion today on all the issues, but 
especially regarding MARC.
    I appreciate the steps that ARS and the Department has 
taken, but I think we would all like to see things handled 
differently. There is still a lot of unanswered questions out 
there.
    As you know, the Subcommittee must be able to confidently 
and fully justify all of its funding recommendations, including 
the recommendations for ARS. And let me just say at this point 
I am not sure we are at the point where we can do that.
    But, as such, we will be sending a formal request for 
information, and I look forward to going through this as we go 
forward and get a prompt reply to those questions for 
information.
    I do want to note that Betsy Bina is leaving us. She is 
actually not going far. That is the good news. But she has been 
responsible for a lot of the issues we have worked with on this 
Subcommittee and, in particular, research is one of the many 
things that we have relied on her expertise over the years.
    So she is going to just be moving to another position in 
the Appropriations Committee. But we appreciate her hard work 
here over the past 4 years on this Subcommittee and wish her 
well. But, like I said, the good thing is, hopefully, we will 
be seeing her because she's not going far.
    But, Betsy, we wish you the best. [Applause].
    And, with that, the hearing is adjourned.
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
</pre></body></html>
